No. 19-227

 

 

IN THE

Supreme Court of the United States

ADNAN SYED,
Petitioner,

v.

STATE OF MARYLAND,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
MARYLAND COURT OF APPEALS

BRIEF OF AMICI CURIAE
THE INNOCENCE NETWORK AND THE
RODERICK AND SOLANGE MACARTHUR
JUSTICE CENTER IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,162 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 20, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
